No. 20-297
IN THE

Supreme Court of the United States
TRANS UNION LLC
Petitioner,
v.
SERGIO L. RAMIREZ,
Respondent.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Patrick J. Carome, a member of
the bar of this Court, certify that the accompanying Brief for Amici Curiae eBay, Inc.,
Facebook, Inc., Google LLC, Computer & Communications Industry Association, The
Internet Association, and Technology Network Supporting Petitioner contains 6,752
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
Executed on February 8, 2021.

PATRICK J. CAROME
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
patrick.carome@wilmerhale.com

